           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


 THE SOCIAL SECURITY ADMINISTRATION’S
       TRIENNIAL SITE REVIEWS OF
       VOLUME ORGANIZATIONAL
        REPRESENTATIVE PAYEES


       May 2012     A-13-11-11127




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

    Conduct and supervise independent and objective audits and
       investigations relating to agency programs and operations.
      Promote economy, effectiveness, and efficiency within the agency.
      Prevent and detect fraud, waste, and abuse in agency programs and
       operations.
      Review and make recommendations regarding existing and proposed
       legislation and regulations relating to agency programs and operations.
      Keep the agency head and the Congress fully and currently informed of
       problems in agency programs and operations.

   To ensure objectivity, the IG Act empowers the IG with:

    Independence to determine what reviews to perform.
    Access to all information necessary for the reviews.
    Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                            SOCIAL SECURITY
MEMORANDUM

Date:   May 31, 2012                                                                 Refer To:

To:     The Commissioner

From:   Inspector General

Subject: The Social Security Administration’s Triennial Site Reviews of Volume Organizational
        Representative Payees (A-13-11-11127)


        OBJECTIVE
        Our objectives were to determine whether (1) the Social Security Administration (SSA)
        was conducting triennial site reviews timely and (2) a sample of recent reviews detected
        signs of potential misuse or significant noncompliance with the Agency’s policies and
        procedures.

        BACKGROUND
        Some individuals cannot manage or direct the management of their finances because of
        their youth or mental and/or physical impairment. Congress granted SSA the authority
        to appoint representative payees to receive and manage these beneficiaries’
        payments. 1 A representative payee may be an individual or an organization. SSA
        selects representative payees for Old-Age, Survivors and Disability Insurance (OASDI) 2
        and Supplemental Security Income (SSI) 3 beneficiaries 4 when representative payments
        would serve the individual’s interests.




        1
         Social Security Act §§ 205(j)(1)(A) and 1631(a)(2)(A)(ii)(I); 42 U.S.C. §§ 405(j)(1)(A) and
        1383(a)(2)(A)(ii)(I).
        2
         The OASDI program provides benefits to qualified retired and disabled workers and their dependents as
        well as to survivors of insured workers. Social Security Act § 201 et seq., 42 U.S.C. § 401 et seq.
        3
         The SSI program provides payments to individuals who have limited income and resources and who are
        age 65 or older, blind, or disabled. Social Security Act §1601 et seq.; 42 U.S.C. § 1381 et seq.
        4
            We use the term “beneficiary” in this report to refer to both OASDI beneficiaries and SSI recipients.
Page 2 - The Commissioner


The Social Security Protection Act of 2004 (SSPA) 5 requires that SSA conduct periodic
reviews of volume organizational payees. 6 SSA policy specifies when it is to conduct
site reviews of each volume payee. For our audit period, reviews conducted on or
before October 14, 2011, Agency policy required reviews at least once every 3 years. 7
Triennial site reviews are conducted to ensure payees are performing their duties
satisfactorily and protect beneficiaries from misuse.

In September 2010, the Social Security Advisory Board released an Issue Brief on
Disability Programs in the 21st Century: The Representative Payee Program. 8 In this
Brief, the Advisory Board recommended, among other things, that the SSA Office of the
Inspector General, “. . . review a sample of site visits to organizational payees to ensure
that those visits are effective in preventing misuse and ensuring compliance with SSA
policies.” 9 The Advisory Board reported “. . . while site reviews are effective as far as
they go, they do not fulfill SSA’s stewardship responsibility to manage benefit payments
in a way that maintains the trust of the public it serves.” 10

To determine whether SSA conducted triennial site reviews timely, we reviewed
information extracted from the Agency’s Representative Payee Monitoring Application
(RPMA) Website 11 for volume organizational payees serving 50 or more beneficiaries.
The Office of the Deputy Commissioner for Operations’ staff provided the data. As of
October 14, 2011, SSA staff reported there were 3,507 active volume organizational
representative payees on the RPMA Website. Of this number, we determined
2,705 payees were subject to site reviews. 12


5
    Pub. L. No. 108-203 § 102, 42 U.S,C, §§ 405(j) and 1383(a)(2).
6
    SSA defines volume organizational payees as organizations serving 50 or more beneficiaries.
7
 As of December 28, 2011, SSA had changed its policy to conduct site reviews for volume organizational
payees at least once every 4 years. Reviews of fee-for-service payees continue to be on a 3-year cycle.
8
  In 1994, when the Congress passed legislation establishing SSA as an independent agency, it created
a seven-member bipartisan Advisory Board to advise the President, Congress, and Commissioner of
Social Security on Social Security and SSI policy. See Social Security Independence and Program
Improvements Act of 1994, 103 P.L. 296, 108 Stat. 1464 (1994). See also Social Security Advisory
Board Issue Brief Series, Disability Programs in the 21st Century, The Representative Payee Program,
Volume 2, Number 1, September 2010, http://www.ssab.gov/Documents/Rep_Payee_Program.pdf.
9
 Social Security Advisory Board Issue Brief Series, Disability Programs in the 21st Century, The
Representative Payee Program, Volume 2, Number 1, September 2010, at 2.

10
     Id. at page 8.
11
  The Agency developed its RPMA Website to monitor and control the triennial review workload. Agency
policy indicates the Website identifies all payees subject to triennial review and is the source of
management information reports to Congress.
12
  We excluded 663 recently established volume organizational payees and 139 payees serving fewer
than 50 beneficiaries.
Page 3 - The Commissioner


In addition, we selected for review a sample of 18 volume organizational payees to
detect signs of possible misuse of benefits and determine whether payees complied
with selected SSA policies and procedures. We selected two of the larger volume
organizational payees in each of the nine SSA regions. Our selection was based on
data recorded on the RPMA Website as of February 2011. The Agency completed
triennial reviews for these 18 payees between Fiscal Years (FY) 2008 and 2010. Our
review included representative payee and beneficiary interviews as well as an
assessment of the payee’s financial recordkeeping. Our review covered a staggered
12-month audit period. 13 In addition, we used March 2011 RPMA Website data to
assess the integrity of the volume organizational payee data recorded on SSA’s
Website. See Appendices B and C for scope and methodology and our sampling
methodology, respectively.

RESULTS OF REVIEW
Generally, SSA conducted the triennial site reviews in accordance with its 3-year cycle
policy. We considered the site reviews timely if SSA conducted them within 3 years of
October 2011. 14 Of the 2,705 active volume organizational payees, the Agency timely
completed triennial reviews for 2,466 (91 percent). However, we determined the
Agency did not timely complete triennial reviews for 239 payees (9 percent). In
addition, we determined the data recorded on the RPMA Website did not always contain
information for all volume organizational representative payees. As a result, we
determined SSA did not always identify all volume organizational payees subject to site
reviews.

Finally, while we did not find any indications that Social Security benefits were misused
by the 18 payees we visited, 11 payees did not comply with all SSA’s policies and
procedures.

TIMELINESS OF TRIENNIAL REVIEWS

Of the 2,705 volume organizational representative payees subject to review on SSA’s
RPMA Website as of early FY 2012, we determined the Agency conducted reviews for
2,466 payees within 3 years of October 2011. 15 However, the Agency had not
conducted reviews for 239 payees timely.

As of December 2011, SSA had changed its policy to require site reviews at least once
every 4 years instead of every 3 years. Of the 239 volume organizational payees, SSA
did not review 90 within the new 4-year site review cycle (see Table 1 for details).

13
   Generally, we based our audit periods on the 12-month period preceding the date(s) we began our site
visits with the 18 payees. Our site visits were conducted between June and September 2011.
14
 On October 14, 2011, SSA staff provided an electronic data extract of active payees from the RPMA
Website.
15
     Id.
Page 4 - The Commissioner


                              Table 1. Timeliness of Site Reviews 16
  Number of Volume-       Reviews
                                                                 Reviews Not Timely Completed
 Organizational Payees Completed Timely
                                                      Time Between (1) Last Review
                               Total Reviews     Completed; or (2) Date Payee Established- Total Reviews
 Beneficiary
                 Payees      Completed Within 3              - and 10/14/2011               Not Timely
   Count
                             Years of 10/14/2011 Between    Between    Between
                                                                                            Completed
                                                  3.01 and 3.5   3.51 and 4   4.01 and   Over 5 Years
                                                     Years          Years      5 Years
 50 to 60           764              673                44          10          25           12          91
 61 to 80           686              635                22           8          12           9           51
 81 to 100          416              384                19           4           3           6           32
 101 to 200         571              525                25           3           7           11          46
 Over 200           268              249                12           2           4           1           19
 Totals            2705             2466                122         27          51           39         239

On January 12, 2012, we discussed the results of our analysis with Office of the Deputy
Commissioner for Operations staff. We requested information about the 90 payees 17
not reviewed within the prior 4 years but, to date, SSA has not provided any additional
information.

To comply with SSPA, the Agency should conduct site reviews of all volume
organizational payees subject to review. These reviews help ensure payees perform
their duties satisfactorily and protect beneficiaries from misuse. Therefore, when SSA
does not conduct reviews, it misses an opportunity to detect misuse, assess
noncompliance with its policies, and/or identify areas where the payees need
improvement.

RPMA WEBSITE DATA INTEGRITY

SSA needs to improve the integrity of data recorded on the RPMA Website. According
to Agency staff, they update data on the RPMA Website each summer. 18 We compared
volume organizational representative payee information recorded on the RPMA Website
to similar data recorded in SSA’s Representative Payee System (RPS). 19, 20 After



16
     Id.
17
  Based on data extracted from RPMA by SSA staff, time between (a) the last review completed or date
payee established and (b) October 14, 2011 is 4 years or longer.
18
     The latest update occurred on September 7, 2011.
19
  RPS is the integrated system used to process payee applications, query payee performance, document
misuse determinations, and document any other significant information about the payee.
20
 The information extracted from RPMA was as of March 17, 2011 and recorded in RPS as of
October 26, 2011.
Page 5 - The Commissioner


adjusting the data for various reasons, 21 we identified 124 payees listed in RPS that we
could not locate on the RPMA Website. In addition, 25 payees listed as active in RPS
were shown as “inactive” on the RPMA Website. We reviewed RPS and determined
that, of the 149 payees identified, SSA completed site reviews for 43. However, since
we were unable to determine from SSA’s systems whether the Agency completed
reviews for 106 payees, we were unable to conclude whether SSA identified all volume
organizational representative payees subject to site reviews to the extent required by
SSPA. This occurred because the information listed on the RPMA Website was
incomplete.

Congress mandated SSA complete periodic reviews of volume organizational payees. 22
Based on its policy, SSA’s monitoring is designed to ensure those payees perform their
payee duties satisfactorily and protect beneficiaries from misuse . Therefore, it is
important that the Agency conduct periodic reviews of all volume organizational payees
subject to SSPA. SSA developed the RPMA Website to control its site review workload
and manage information reports to Congress. Therefore, it is important that data
recorded on the Website be accurate and current. Without accurate data on the
Website, SSA may not monitor some payees as directed by SSPA.

On January 12, 2012, we discussed the results of our analysis with Office of the Deputy
Commissioner for Operations staff. Staff indicated there might have been discrepancies
between RPS data and RPMA Website data because of variations in payee names,
fluctuations in beneficiary counts, and timing concerns with recently established or
updated payees. Staff explained since SSA only updates the RPMA Website annually,
it is impossible for the two databases to contain the same information. Staff explained
they update the RPMA Website annually because the Agency only conducted cyclical
site reviews, and the annual updates identified recently established payees that were
due for a review in the coming year. We provided staff information about our analysis
on January 18, 2012; however, to date, SSA has provided no additional information
regarding this matter.

PAYEE COMPLIANCE WITH SSA POLICIES AND PROCEDURES

During our review of 18 volume organizational representative payees, 11 had
17 instances of noncompliance with SSA’s policies and procedures. Specifically, we
found (a) eight payees did not notify SSA of changes in beneficiary status timely; (b) six
payees did not have adequate documentation to account for how beneficiaries’ monthly
benefit payments were spent during the audit periods; (c) two payees did not return
accountability reports for our audit period; and (d) one payee had incorrectly titled bank
accounts. Finally, we determined SSA identified similar instances of noncompliance
during its recent site visits of six of the representative payees. See Table 2 for more
information.


21
     We removed payees classified as fee-for-service and payees subject to SSA’s Onsite Review Program.
22
     Pub. L. No. 108-203 § 102, 42 U.S,C, §§ 405(j) and 1383(a)(2).
 Page 6 - The Commissioner


 Table 2. Instances of Payee Noncompliance with SSA’s Policies and Procedures
                                                                                                      Total
                                      Reporting                       Returning      Titling of
                       Payee                        Retaining                                     Instances of
 SSA Region                           Changes                       Representative     Bank
                     Location 23                  Documentation                                       Non-
                                       to SSA                       Payee Reports    Account
                                                                                                  Compliance
                  Hartford,
                  Connecticut
                                                                                                       --
Boston            Boston,
                  Massachusetts                      *                                               2

New York
                  Hamilton, New
                  Jersey                              *                              *               2
                  New Hyde
                  Park, New York       *                                                              1
                  Washington,
                  DC                                                                                 2
Philadelphia
                  Dover,
                  Delaware                                                                            1
                  Hover,
                  Alabama
                                                                                                       --
Atlanta
                  Birmingham,
                  Alabama                                                                            2

Chicago
                  Evanston,
                  Illinois                                                                           2
                  Chicago, Illinois                                                                    --
                  Waco, Texas                                                                          --
Dallas            Fort Worth,
                  Texas                                                                               1


Kansas City
                  Liberty,
                  Missouri             *                                                              1
                  Kansas City,
                  Missouri                                             *                             2
                  Lakewood,
                  Colorado
                                                                                                       --
Denver
                  Westminster,
                  Colorado
                                                                                                       --
                  Fresno,
                  California
                                                                                                       --
San
Francisco         San Francisco,
                  California                          *                                               1
Totals                                   8              6                 2              1            17
 *Asterisk indicates instances of noncompliance SSA noted during its site reviews with the payee.

 Of the 17 instances of payee noncompliance identified during our site visits, the Agency
 had identified 7. However, the additional 10 instances of noncompliance we detected
 may not have existed when SSA conducted its reviews.




 23
      Payee staff provided address information during interviews.
Page 7 - The Commissioner


Reporting Changes to SSA

Federal regulations require that representative payees notify SSA of any changes that
affect their performance as a representative payee. 24 In addition, Federal regulations
state a representative payee has the responsibility to notify SSA of any event or change
that will affect the amount of benefits received, the right to receive benefits, or how
benefits will be received. 25 We determined eight payees did not notify SSA of such
changes. Specifically, (1) five payees did not report when SSI beneficiaries’ conserved
funds exceeded the resource limit; (2) two payees did not report beneficiary income;
and (3) one payee did not report when a beneficiary left its care.

                          Five payees did not notify SSA timely when the beneficiaries’
     SSI Beneficiaries’
                          ledger balances exceeded the $2,000 maximum allowed. 26
     Resources
                          Representative payees are responsible for informing SSA
                          when beneficiaries’ resources exceed the allowable limit. 27 For
180 beneficiaries reviewed, we identified 5 payees that served 8 beneficiaries who
exceeded the SSI resource limit (see Table 3 for more information). As a result, we
estimate these individuals received approximately $18,130 28 in potential SSI
overpayments during our audit period. The periods of potential estimated
overpayments ranged from 1 to 12 months. For example, our review of an SSI
beneficiary’s ledger disclosed a payee located in Washington, DC, held excess
conserved funds for that individual for about 10 months. As a result of our review, the
payee explained the overpaid funds would be returned to the Agency. We confirmed
the payee returned an overpayment amount of $4,365 to SSA in September 2011.




24
     20 C.F.R. §§ 404.2035(f) and 416.635(f).
25
     20 C.F.R. §§ 404.2035(d) and 416.635(d).
26
  The resource limit for SSI beneficiaries is $2,000 for an individual and $3,000 for a married couple.
20 C.F.R. § 416.1205(c); See also SSA, POMS, SI 01110.003 A.2 (December 8, 2010).
27
  20 C.F.R. §§ 416.704(c), and 416.635(d). See also SSA, Guide for Organizational Representative
Payees – Changes to Report.
28
   We estimated the amount by multiplying the number of months a beneficiary was over the resource
limit by the beneficiaries’ monthly SSI payment amount.
Page 8 - The Commissioner


                    Table 3. SSI Beneficiaries Exceeded the Resource Limit
                                                                 Total        Monthly        Total
                                           Number of           Amount           SSI         Benefits
                           Payee            Months of          Over the       Payment      Improperly
        Beneficiary       Location        Ineligibility 29   $2,000 Limit     Amount          Paid
              A          Boston, MA              3                $1,299         $572           $1,716
                          New Hyde
              B                                  3                  $270          $30             $90
                           Park, NY
                          New Hyde
              C                                 11                $3,002          $30            $330
                           Park, NY
                          New Hyde
              D                                 12              $29,834           $30            $360
                           Park, NY
                         Washington,
              E                                 10              $10,375        $1,159          $11,590
                             DC
                         Birmingham,
              F                                  1                  $181         $674            $674
                              AL
                         Birmingham,
              G                                  3                  $413         $674           $2,022
                              AL
                         Fort Worth,
              H                                  2                   $22         $674           $1,348
                              TX
            Total                                                                              $18,130

                         We determined two payees did not notify the Agency timely of
 Beneficiary             eight beneficiaries’ earned or unearned income. 30 At the time
 Income                  of our visits, the payees were aware the beneficiaries in their
                         care were working. For example, during beneficiary interviews
in Dover, Delaware, we determined two beneficiaries were working, but the payee had
not reported the estimated wages to SSA. As a result of our review, staff at the payee’s
office provided the wages to their local SSA field office in August 2011. During our
September 2011 site visit with a payee in Evanston, Illinois, we determined the payee
had not notified SSA of six beneficiaries’ earned and/or unearned income. SSA policy
requires that representative payees report wages for any months the income has
changed. 31 Policy also states, “If a disabled beneficiary works and receives earnings in
any amount, it may be indicative of medical improvement and cessation of disability.” 32

                                    At the time of our review, one payee did not always notify
     Beneficiaries Leave
                                    SSA when a beneficiary left its care. Representative
     Payee’s Care
                                    payees are responsible for notifying SSA of events or
                                    changes that will affect their ability to fulfill the


29
     Cells shaded in grey indicate months of ineligibility extended beyond our audit period.
30
  Income is any item an individual receives in cash or in-kind that can be used to meet his or her need for
food or shelter. Examples of earned income include wages or net earnings from self-employment.
Examples of unearned income include alimony payments or prizes and awards.
31
     SSA, POMS, SI 00820.143 (January 19, 2011).
32
     SSA, POMS, GN 00605.562 B (10) (July 14, 2006).
Page 9 - The Commissioner


responsibilities of being a payee. 33 An example of such an event is when a beneficiary
moves, or no longer needs a payee. During an interview with a payee in Liberty,
Missouri, payee staff described the procedures for notifying SSA when a beneficiary
leaves its care. Staff explained they do not report this type of information to SSA.
Instead, the office leaves it up to the beneficiary to self-report their move. Although
none of the beneficiaries in our sample left the payee’s care during our audit period, we
reminded the payee of its responsibility to report changes to SSA. The payee explained
it would begin reporting changes to SSA, as appropriate. In July 2009, the Agency also
noted this finding during its triennial review with the payee.

Retaining Documentation

Representative payees are responsible for retaining detailed and accurate records of
how they used the benefits to provide an accurate report to SSA when requested. 34
Examples of documentation that indicates how benefits are used include written records
of payments received from SSA; bank statements and cancelled checks; and receipts
for rent, utilities, and major purchases made for the beneficiaries.

We determined six payees did not retain adequate documentation to support how they
spent benefit payments. Of the six payees, SSA previously noted this finding during
recent site visits with three of the payees. For example, during our visit with a payee in
Boston, Massachusetts, we found 11 expenses, ranging from $30 to $1,300, for which
the payee did not provide receipts. The Agency completed a site review with this payee
in August 2010. During that visit, SSA noted the lack of receipts for expenditures as an
area of concern and recommended the payee retain receipts for expenses of $100 or
more. If payees do not retain adequate documentation, there is an increased risk of
unauthorized expenditures.

Returning Representative Payee Reports

Representative payees are responsible for keeping beneficiary records and reporting
the use of benefits by completing a Representative Payee Report (RPR) 35 annually.
SSA uses the RPR to monitor how the payee spent and/or saved the benefits on the
beneficiary’s behalf and identify situations where representative payment may no longer
be appropriate or the payee may no longer be suitable. Our review of SSA’s systems
indicated two payees had not returned the accountability reports for three beneficiaries
during our audit period. SSA detected this issue during its September 2009 site visit
with a payee in Kansas City, Missouri. We discussed the missing reports with a payee
in Washington, DC, and the staff explained they neglected to complete the reports for


33
  20 C.F.R. §§ 416.704(c), 416.635(f) and GN 00502.113.C.1 (October 13, 2011); SSA, Guide for
Organizational Representative Payees – Reporting Events to SSA.
34
     SSA, POMS, GN 00502.113 C.(1) (October 13, 2011).
35
     SSA, POMS, GN 00605.001 B.(1) (November 7, 2008).
Page 10 - The Commissioner


the period ended December 31, 2010. However, staff stated they were completing the
required forms and planned to mail them to SSA’s Data Operations Center in Wilkes-
Barre, Pennsylvania. We confirmed SSA received the completed accountability reports.

Titling of Bank Accounts

A payee in Hamilton, New Jersey, had not titled the individual beneficiary bank accounts
in a manner that identified the beneficiaries as the owners and the payee as the
fiduciary. The Agency noted the improper bank account titles during its site review with
the payee in September 2010. However, the payee did not take corrective action after
SSA’s site review. At the time of our site visit in August 2011, we found the individual
checking accounts remained titled incorrectly. If the bank account is improperly titled,
there is a risk of inadequate management of the beneficiaries’ funds. SSA policy states
the individual account title must show that the funds belong to the beneficiary and that
the representative payee only has a fiduciary interest in the account. 36

CONCLUSION AND RECOMMENDATIONS
Generally, SSA conducted triennial reviews timely. However, SSA did not always
identify all volume organizational payees subject to site reviews. We were unable to
locate 126 payees on the RPMA Website, and found 27 payees listed as active in RPS,
but identified as inactive on the RPMA Website. Finally, while we did not find any
indications of Social Security benefits misused by the 18 payees we visited, 11 of the
payees did not comply with all SSA’s policies and procedures.

Therefore, we recommend SSA:

1. Comply with its policies to complete site reviews timely.
2. Determine whether it is cost-effective to update the RPMA Website more frequently
   to identify all volume organizational payees subject to site reviews.
3. Review the records of the eight SSI beneficiaries we identified as being over the
   $2,000 resource limit and the eight beneficiaries we identified as having unreported
   income, and recover any overpayments, as applicable.

AGENCY COMMENTS
SSA agreed with our recommendations. See Appendix D for the Agency’s comments.




                                                Patrick P. O’Carroll, Jr.

36
     SSA, POMS GN 00603.010 A (June 5, 2008).
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Sampling Methodology
APPENDIX D – Agency Comments
APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                            Appendix A

Acronyms
C.F.R.        Code of Federal Regulations
FY            Fiscal Year
OASDI         Old-Age, Survivors and Disability Insurance
OIG           Office of the Inspector General
POMS          Program Operations Manual System
Pub. L. No.   Public Law Number
RPMA          Representative Payee Monitoring Application
RPR           Representative Payee Report
RPS           Representative Payee System
SSA           Social Security Administration
SSI           Supplemental Security Income
SSPA          Social Security Protection Act of 2004
U.S.C.        United States Code
                                                                                  Appendix B

Scope and Methodology
To accomplish our objective, we:

 Reviewed applicable laws and regulations.

 Reviewed Social Security Administration (SSA) policies and procedures related to
  site reviews.

 Reviewed prior Office of the Inspector General reports.

 Obtained and analyzed information extracted from the Agency’s Representative
  Payee Monitoring Application (RPMA) Website for volume organizational payees
  serving 50 or more beneficiaries. We obtained the data as of October 14, 2011 from
  staff in the Office of the Deputy Commissioner for Operations. The data file
  identified 3,507 volume organizational representative payees on the RPMA Website.
  From this file, we determined 2,705 payees were subject to SSA’s site review
  policies. We excluded 663 recently established volume organizational payees and
  139 payees serving less than 50 beneficiaries. The extract included the most recent
  dates of SSA site reviews for each of the 2,705 payees. We used these data to
  determine whether the Agency completed site reviews timely.

 Obtained a report from the RPMA Website of all reviews completed for large volume
  organizational representative payees for the period Fiscal Years 2008 through 2010.
  These data were from the RPMA Website on February 1, 2011. From these data,
  we:

       Selected a sample of 18 organizational payees to determine whether Social
        Security benefits were misused or significant noncompliance occurred.

       Selected two of the largest payees in each of SSA’s regions where we have audit
        staff. 1 In selecting the organizations, we excluded those payees SSA had
        already scheduled for site reviews under the Social Security Protection Act of
        2004 in 2011. See Appendix C, Sampling Methodology, for more information.
          o Conducted site visits of each selected payee.
          o Completed interviews of selected representative payees and beneficiaries.
          o Assessed the payee’s financial recordkeeping for a 12-month audit period. 2



1
    The Office of Audit has staff in all SSA regions except the Seattle Region.
2
  We developed our audit periods based on the 12-month period preceding the date(s) we began our site
visits with the 18 payees. Our site visits were conducted between June and September 2011.


                                                      B-1
    Assessed the integrity of the volume organizational payee data recorded on the
     RPMA Website.
      o Compared data to an extract of volume organizational payees recorded in
        SSA’s Representative Payee System to determine whether the Agency
        identified all volume payees subject to site reviews.

The principal entity audited was the Office of the Deputy Commissioner for Operations.
We performed our review in Baltimore, Maryland, from June 2011 through February
2012. In addition, we performed work in Alabama, California, Colorado, Connecticut,
Delaware, Illinois, Massachusetts, Missouri, New Jersey, New York, Texas, and
Washington DC. We tested the data obtained for our review and determined them to be
sufficiently reliable to meet our objectives. Although we found and reported a data
integrity issue, we were able to use the data for our intended purpose. We conducted
this performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives.




                                         B-2
                                                                                          Appendix C

Sampling Methodology
In February 2011, we obtained a report from the Representative Payee Monitoring
Application Website consisting of all triennial reviews completed for large volume
organizational representative payees for Fiscal Years 2008 through 2010. From this
file, we selected a sample of 18 organizational payees to determine whether the payees
complied with the Social Security Administration’s (SSA) policies and procedures. We
selected two of the larger payees in each of SSA’s regions where we have audit staff. 1
In selecting the organizations, we excluded those payees SSA had already scheduled
for site reviews in 2011.

For the 18 payees, we randomly selected 2 a sample of at least 10 beneficiaries for a
review of their financial records. Of the 10 beneficiaries at each payee’s location, we
selected at least 5 to be interviewed. Based on our review of financial records and
interviews with beneficiaries, nothing came to our attention to indicate the beneficiaries’
needs were not being met, or that beneficiary funds were being misused. See
Table C-1 for our sample populations.

     Table C-1. Volume Organizational Representative Payees Selected for Review
                                                                            Number of
                      Region                 Payee Location                Beneficiaries
                                                                             Served 3
                                        Hartford, Connecticut                       393
                       Boston
                                        Boston, Massachusetts                     1,302
                                        Hamilton, New Jersey                      4,450
                     New York
                                        New Hyde Park, New York                     193
                                        Washington, DC                              731
                    Philadelphia
                                        Dover, Delaware                             854
                                        Hoover, Alabama                             237
                       Atlanta
                                        Birmingham, Alabama                         170
                                        Evanston, Illinois                          214
                      Chicago
                                        Chicago, Illinois                           528
                                        Waco, Texas                                 522
                       Dallas
                                        Fort Worth, Texas                           308
                                        Liberty, Missouri                           268
                    Kansas City
                                        Kansas City, Missouri                       774
                                        Lakewood, Colorado                          190
                       Denver
                                        Westminster, Colorado                       153
                                        Fresno, California                        2,539
                   San Francisco
                                        San Francisco, California                 1,167



1
    The Office of Audit has staff in all SSA regions except the Seattle Region.
2
    We took a non-statistical selection of 10 beneficiaries for the payee in Washington, DC.
3
    As of May through July 2011.
                  Appendix D

Agency Comments
                                       SOCIAL SECURITY
MEMORANDUM


Date:   May 14, 2012                                                            Refer To: S1J-3

To:     Patrick P. O’Carroll, Jr.
        Inspector General

From:   Dean S. Landis /s/
        Deputy Chief of Staff

Subject: Office of the Inspector General Draft Report, “The Social Security Administration’s Triennial
        Site Reviews of Volume Organizational Representative Payees” (A-13-11-11127)—
        INFORMATION

        Thank you for the opportunity to review the draft report. Please see our attached comments.

        Please let me know if we can be of further assistance. You may direct staff inquiries to
        Amy Thompson at (410) 966-0569.

        Attachment




                                                       D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
“THE SOCIAL SECURITY ADMINISTRATION’S TRIENNIAL SITE REVIEWS OF
VOLUME ORGANIZATIONAL REPRESENTATIVE PAYEES” (A-13-11-11127)


Recommendation 1

SSA should comply with its policies to complete site reviews timely.

Response

We agree.

Recommendation 2

SSA should determine whether it is cost-effective to update the RPMA Website more frequently
to identify all volume organizational payees subject to site reviews.

Response

We agree.

Recommendation 3

SSA should review the records of the eight SSI beneficiaries we identified as being over the
$2,000 resource limit and the eight beneficiaries we identified as having unreported income, and
recover any overpayments, as applicable.

Response

We agree.




                                              D-2
                                                                         Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Shirley E. Todd, Director, Evaluation Division

   Randy Townsley, Audit Manager

Acknowledgments

In addition to those named above:

   Nicole Gordon, Auditor-in-Charge

For additional copies of this report, please visit our Website at http://oig.ssa.gov/ or
contact the Office of the Inspector General’s Public Affairs Staff at (410) 965-4518.
Refer to Common Identification Number A-13-11-11127.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
